No. 19-753
In the

Supreme Court of the United States
MICHAEL HUNTER;
MARTIN CASSIDY; CARL CARSON,
Petitioners,
v.
RANDY COLE; KAREN COLE; RYAN COLE,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

REPLY BRIEF

William S. Helfand
Norman Ray Giles
Lewis Brisbois Bisgaard
& Smith, Llp
24 Greenway Plaza,
Suite 1400
Houston, Texas 77046
(713) 659-6767

James T. Jeffrey, Jr.
Counsel of Record
Law Offices of Jim Jeffrey
3200 West Arkansas Lane
Arlington, Texas 76016
(817) 261-3200
jim.jeffrey@sbcglobal.net

Counsel for Petitioners

295503

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 1
REASONS FOR GRANTING THE PETITION . . . . . 2
I.

Assuming the barrel of a gun was not yet
pointed directly at Officer Hunter when he or
Lieutenant Cassidy shot Ryan Cole, clearly
established federal law did not obviously
prohibit either officer from firing to stop Cole
from continuing to move his firearm toward
Officer Hunter even if an officer had not
shouted a warning and waited to determine
whether the imminent threat to Officer
Hunter’s life that Cole’s actions presented
had subsided after the warning . . . . . . . . . . . . . . 2
A. The Court has jurisdiction to analyze
and apply clearly established law in
this case under the undisputed facts in
the summary judgment evidence and
even disputed facts, since the contested
facts are presented in the light most
favorable to the Respondents . . . . . . . . . . . . 2
1.

The Officers have presented an
accurate and complete record for
the Court’s analysis of qualified
immunity  . . . . . . . . . . . . . . . . . . . . . . . . . 2

ii
Table of Contents
Page
2. The record, viewed in the light
most favorable to the Respondents,
supports immunity  . . . . . . . . . . . . . . . . . 6
B. No body of well-established legal
authority in October 2010 informed
Lieutenant Cassidy, Officer Hunter,
or any other reasonable officer that
settled law prohibited every officer
from firing to stop an armed, mentally
unstable, person from moving a firearm
in the direction of a nearby officer . . . . . . . . 8
C. Unless this Court exercises its authority,
the Fifth Circuit will not likely comply
with this Court’s caselaw  . . . . . . . . . . . . . . 11
II. The Fifth Circuit also failed to adhere to
this Court’s precedent which has expressly
rejected prosecuting claims under the
Fourteenth Amendment that are governed
by the Fourth Amendment . . . . . . . . . . . . . . . . . 12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Albright v. Oliver,
510 U.S. 266 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Ashcroft v. al-Kidd,
563 U.S. 731 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Baker v. Putnal,
75 F.3d 190 (5th Cir. 1996) . . . . . . . . . . . . . . . . . . . 9, 10
Behrens v. Pelletier,
516 U.S. 299 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 5
Brosseau v. Haugen,
543 U.S. 194 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . 8, 10
Graham v. Connor,
490 U.S. 386 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Hunter v. Cole,
137 S. Ct. 497 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Johnson v. Jones,
515 U.S. 304 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4
Kisela v. Hughes,
138 S. Ct. 1148 (2018)  . . . . . . . . . . . . . . . . . . . . . . . . . 12
Luna v. Mullenix,
777 F.3d 221 (5th Cir. 2014) . . . . . . . . . . . . . . . . . . . . 11

iv
Cited Authorities
Page
Manuel v City of Joliet,
137 S. Ct. 911 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . 2, 12
Mullenix v. Luna,
136 S. Ct. 305 (2015) . . . . . . . . . . . . . . . . . . . . .  3, 10, 11
Pauly v. White,
874 F.3d 1197 (10th Cir. 2017)  . . . . . . . . . . . . . . . . . . 11
Scott v. Harris,
550 U.S. 372 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Tennessee v. Garner,
471 U.S. 1 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  9, 10
White v. Pauly,
137 S. Ct. 548 (2017) . . . . . . . . . . . . . . . . . . . . . . .  10, 11
Statutes and Other Authorities
U.S. Const., amend. IV  . . . . . . . . . . . . . . . . . . . . . . . . . . 12
U.S. Const., amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . 12

1
SUMMARY OF THE ARGUMENT
Lieutenant Cassidy, Officer Hunter, and Officer
Carson present the same legal issues and rely on the
same evidentiary record this Court exercised jurisdiction
over in the Officers’ prior Petition for Writ of Certiorari
in Case No. 16-351, Hunter v. Cole, 137 S. Ct. 497 (2016).
The District Court and the first Fifth Circuit panel that
analyzed the facts expressly recognized that the Officers
accepted the District Court’s factual findings and the
Officers urged immunity within factual findings the
District Court made when it identified evidence in the light
most favorable to the Respondents. This is the method this
Court has set out for appropriately analyzing immunity,
so the Court still has jurisdiction to apply immunity.
The central undisputed material facts are that Ryan
Cole held a gun in his hand with his finger on the trigger
while turning his body toward Officer Hunter who stood
exposed to risk of serious injury without any available
cover only a few feet from Cole. Respondents urge the
Court not to analyze this undisputed evidence under this
Court’s controlling legal standards. Instead, Respondents
ask the Court to substitute essentially all the undisputed
facts with their self-serving characterizations of and
arguments about mere tidbits of the evidence. Little
analysis is necessary to discover that Respondents’
characterizations and arguments regarding the few facts
they mention is woefully void of necessary contextual
information. This Court should analyze the material
facts Petitioners correctly present under this Court’s
relevant legal standards, and grant qualified immunity
to Lieutenant Cassidy and Officer Hunter because they
did not violate clearly established law.

2
This Court should also correct the Fifth Circuit’s
blatant refusal to apply Manuel v City of Joliet, 137
S. Ct. 911, 921 (2017), which precludes the Fourteenth
Amendment claim asserted against Officer Carson.
REASONS FOR GRANTING THE PETITION
I.	Assuming the barrel of a gun was not yet pointed
directly at Officer Hunter when he or Lieutenant
Cassidy shot Ryan Cole, clearly established federal
law did not obviously prohibit either officer from
firing to stop Cole from continuing to move his
firearm toward Officer Hunter even if an officer
had not shouted a warning and waited to determine
whether the imminent threat to Officer Hunter’s
life that Cole’s actions presented had subsided after
the warning.
A.	The Court has jurisdiction to analyze and apply
clearly established law in this case under the
undisputed facts in the summary judgment
evidence and even disputed facts, since the
contested facts are presented in the light most
favorable to the Respondents.
1.

The Officers have presented an accurate
and complete record for the Court’s
analysis of qualified immunity.

The legal standards that govern qualified immunity
in this case were clearly established by October 24, 2010
when Lieutenant Cassidy and Officer Hunter encountered
Ryan Cole, and the facts under which those legal standards
must be applied were documented in the District Court

3
record by December 22, 2014 when that court issued its
summary judgment opinion. On that record, in 2016 this
Court exercised jurisdiction over those facts and the
clearly established law that applied to them, when this
Court granted the Officers’ petition for a writ of certiorari
and vacated the Fifth Circuit judgment that was based on
the rationale the circuit court lacked jurisdiction to apply
immunity in this case. (App. 173a).
This Court remanded the case to the Fifth Circuit
for its further consideration under this Court’s decision
in Mullenix v. Luna, 136 S. Ct. 305 (2015) (per curiam),
wherein this Court had exercised jurisdiction to decide
qualified immunity on a summary judgment record. The
facts in this case, and the law that governed those facts
when Lieutenant Cassidy and Officer Hunter faced Cole,
have not changed so the Court should reject Respondents’
efforts to avoid this Court applying its precedent to the
material facts in this case. This Court provided the Fifth
Circuit a second opportunity to properly decide immunity,
but the Fifth Circuit did not do so. This Court still has
jurisdiction to analyze and apply clearly established
law under all the undisputed facts in the summary
judgment record and even disputed facts, provided the
contested facts are viewed in the light most favorable to
the Respondents. Compare Behrens v. Pelletier, 516 U.S.
299, 313 (1996); with Johnson v. Jones, 515 U.S. 304, 314
(1995). Lieutenant Cassidy and Officer Hunter implore
the Court to decide immunity.
From the outset of this litigation, Lieutenant Cassidy
and Officer Hunter have supported their immunity claims
with undisputed facts and, when facts are disputed in
any way, viewing those facts in the light most favorable

4
to Respondents in accordance with Johnson and Behrens
supra. While the Officers disputed some of Respondents’
factual contentions including: that Cole never pointed his
gun at Officer Hunter; and Cole always pointed his gun
toward his own head; and Cole was not aware of Officer
Hunter’s presence; and various opinions Respondents’
experts reached. While genuine factual disputes could
be resolved at trial by a jury, Johnson, 515 U.S. at 314,
resolution of immaterial disputes is simply not necessary
for this Court to decide immunity. Therefore, the Officers
have asked the courts to assume all disputed facts in the
light most favorable to the Respondents, and simply apply
the relevant clearly established legal authorities to facts
that support Plaintiffs’ contentions.
To that end, the Officers adopted, solely for the
purpose of applying immunity, the facts Respondents’
experts provided because the District Court stated in
its opinion, “the [District] Court relies largely upon the
expert testimonies of [Tom] Bevel and [Timothy] Braaten,”
for the purpose of determining the evidence most favorable
to Respondents. (App. 206a, 7a). Throughout the District
Court opinion, that Court expressly cited testimony from
Respondents’ experts as the Court’s source of facts. (App.
197a, 202a-207a, 215a).
Throughout their brief, Respondents constantly
accuse Lieutenant Cassidy, Officer Hunter, and Officer
Carson of being liars who have allegedly changed their
stories about the facts, but the record refutes those
accusations. The Officers’ contentions are simply that even
if a factfinder concluded that Cole never pointed his gun
at Officer Hunter, Cole always pointed his gun toward
his own head, Cole was not aware of Officer Hunter’s

5
presence, and believed all of the opinions Respondents’
experts reached, nonetheless, an objective officer still
could have reasonably believed Officer Hunter’s life was in
imminent danger if Cole continued to move while holding
his gun as he indisputably did.
The District Court opinion well-demonstrates the
Officers’ adherence to the Behrens procedure:
“Defendants argue that even accepting all of
Plaintiffs’ facts, they are entitled to qualified
immunity… Defendants contend that the
officers’ decision to shoot Cole would still
be objectively reasonable on Plaintiffs’ facts
because Cole posed an immediate danger to the
officers…. ‘Cole was holding a loaded gun, with
his finger on the trigger, while he was turning
toward and then facing Officer Hunter. Cole
could have shot Officer Hunter before Hunter
could react and take action to defend himself.’
Defendants argue that a reasonable officer
could have feared for his life in such a situation
and would not have to wait until fired upon to
defend himself.” (App. 204a).
The initial Fifth Circuit panel analyzing this case
similarly acknowledged the Officers presented their
appeal in the form required by this Court.
“Accepting the Cole’s best version of the
evidence, as they must, Officers Cassidy and
Hunter argue that shooting Ryan was not
objectively unreasonable – that he presented
an immediate threat of serious harm when they
fired.” (App. 128a).

6
The initial Fifth Circuit panel, likewise, determined
the evidence shows the following facts Respondents also
accuse the Officers of lying about:
• “At the time they fired, the officers were aware that
Ryan had been walking around the neighborhood
holding a gun to his head, and that he had not
surrendered to other officers who came in contact
with him.”
• “Both officers were aware that Ryan had brought
guns to Eric Reed, Jr.’s house, and Officer Cassidy
knew that there had been a disturbance at the Cole
house the night before.
• “The officers were aware that Ryan had told Eric
not to try to take his remaining gun, and that he
did not ‘wanna use it on’ him.”
(App. 129a-130a, 81a-82a).
Lieutenant Cassidy, Officer Hunter, and Officer
Carson simply present the disputed facts in the light most
favorable to Respondents for purpose of applying clearly
established law.
2.	The record, viewed in the light most
favorable to the Respondents, supports
immunity.
In a similar attempt to avoid appropriate analysis
of the facts under controlling law, Respondents’ brief
demonstrates that they ask the Court to substitute record
facts with their naked characterizations of and arguments

7
about mere tidbits of the evidence, and ignore all the other
evidence that provides context for proper evaluation of
the facts. Little analysis is necessary to discover that
Respondents’ characterizations and arguments regarding
the few facts they mention is woefully incomplete and
entirely void of relevant contextual information. In contrast
to the accurate and complete factual record Lieutenant
Cassidy and Officer Hunter have presented, Respondents
urge the Court to accept their characterization of the
events which suggests the dangerous, uncertain, rapidly
evolving events that occurred over a 3-5 second span of
time must be unreasonably construed through a few, but
not all, snapshots of time that would be indiscernible to
a reasonable officer at the scene.
Most prominently, however, Respondents seek to avoid
the evidence their own experts have provided, even though
the District Court unequivocally identified Respondents’
experts as the source of facts construed in the light
most favorable to the Respondents. (App. 7a, 206a). The
District Court found the following facts, in the light most
favorable to Cole. “Cole kept the handgun aimed at his own
head as he turned to face the Officers, never pointing
the handgun at Officer Hunter.” (App. 202a) (emphasis
added). “Cole was initially facing away from the Officers
at a 90-degree angle, holding a gun directed toward his
own head, when he was first shot by the Officers.” (App.
203a) (emphasis added). “[O]ne bullet entered [Cole’s] left
arm above the elbow and continued into his body.” (App.
203a). “As [Cole] was turning toward the Officers, one
of the Officers shot [Cole] with the second bullet, which
grazed his left arm.” (App 203a). The District Court stated
these facts, in the light most favorable to Respondents
based on the testimony of Respondents’ experts. However,

8
Respondents ask this Court to assume these facts don’t
exist.
The Officers ask the Court to “slosh [its] way
through the factbound morass of ‘reasonableness,’” this
Court’s precedent requires, and apply those facts to the
established legal standards. See Scott v. Harris, 550 U.S.
372 (2007). Respondents instead advocate the Court make
no real analysis of the facts, but “this area [of the law] is
one in which the result depends very much on the facts
of each case.” See Brosseau v. Haugen, 543 U.S. 194, 201
(2004). The facts of this case support immunity.
B.	No body of well-established legal authority in
October 2010 informed Lieutenant Cassidy,
Officer Hunter, or any other reasonable officer
that settled law prohibited every officer from
firing to stop an armed, mentally unstable,
person from moving a firearm in the direction
of a nearby officer.
The only things that have changed since this Court
last exercised jurisdiction over this case are the mutating
legal theories Respondents and the Fifth Circuit claim
Lieutenant Cassidy and Officer Hunter were required to
discern and apply in 2010, even though the Fifth Circuit
and Respondents apparently did not recognize the current
legal theory until en banc rehearing in the Fifth Circuit.
(Judge Jones’ dissent App. 31a-34a). To deny immunity,
this Court’s authorities require that every reasonable
officer would have understood in October 2010 that a
mentally disturbed man with his finger on the trigger of
a gun who is turning his body toward an officer standing
in an open area a few feet away would pose no threat to

9
the nearby officer’s life, Ashcroft v. al-Kidd, 563 U.S. 731,
741 (2011). It is not difficult to understand why Petitioners
failed to make that connection years sooner.
Despite providing no analysis supporting their
conclusion there was no threat, Respondents and the Fifth
Circuit rely on Tennessee v. Garner, 471 U.S. 1 (1985) and
Baker v. Putnal, 75 F.3d 190, 193 (5th Cir. 1996) as clearly
establishing the law applicable to what they characterize
as this “obvious case.” (App. 18a). The basis of this “obvious
case” conclusion is the opinion of judges, reached in the
safety of their chambers, that Officer Hunter was not
exposed to any threat from Cole. The absurdity of the
conclusion Cole was not engaging in potentially deadly
conduct is evidenced by the fact that when Cole’s own gun
discharged, he nearly killed himself. (App. 9a).
Evaluating any use of force requires the Court to
consider the controlling facts from the perspective of
an objectively reasonable officer at the scene. Graham
v. Connor, 490 U.S. 386, 396 (1989). The Coles ignore
the Amici Curiae contribution which demonstrates the
perspective of an officer at the scene by providing links
to a video of an actual shooting (Amici Brief pp. 9-10). The
Amici’s example demonstrates that during the final 3-5
second encounter between Cole and the Officers, a trained
police officer would know that even if Cole held his gun
pointed at his own head, Cole could have immediately
moved the gun from pointing at his own head to open fire
on Officer Hunter before the officers could react to stop
that lethal threat. (Amici Brief pp. 9-10, citing the April
13, 2019 incident in Volusia County, Florida).

10
The suspect in the Volusia County incident fired a
gunshot while running away. While running, the suspect
then slightly turned and fired, wounding the Deputy in
the head. Immediately prior to firing, the suspect had held
his handgun against his own head while running. Against
the factual background of this case and the similar Volusia
County incident, neither Garner nor Baker provide any
notice to Officer Hunter or Lieutenant Cassidy that their
actions were prohibited because Cole posed no threat.
The suspect in Garner was a non-dangerous unarmed
teenager shot while fleeing away from the officer. Garner,
471 U.S. at 21-22. In Garner this Court specifically stated
that if the suspect had been armed, that fact “would
present a different situation.” Garner, 471 U.S. at 21.
In Baker, Sergeant Putnal fired a shot into a car
when Baker began to turn toward the officer, but three
eyewitnesses testified Baker was not holding a gun when
he was shot, and the gun recovered after the shooting was
under the car seat. Baker, 75 F.3d at 198.
Unlike the facts in Garner and Baker, it is undisputed
that when Cole was shot, he visibly held a gun in his hand
with his finger on the trigger as he turned toward Hunter.
That fact alone “present[s] a different situation.” Garner
at 21.
This Court has repeatedly rejected the notion that
Garner provides clearly established law. Brosseau, 543
U.S. at 205; Mullenix supra; White v. Pauly, 137 S. Ct.
548, 552 (2017). This Court should consider the conflict
between the Fifth Circuit’s application of Garner and
Mullenix and the Tenth Circuit’s application of those

11
cases after this Court’s remand in White. See Pauly v.
White, 874 F.3d 1197, 1222 (10thCir. 2017) recognizing that
Garner is not specific enough guidance to comply with the
Mullenix requirements.
C. 	Unless this Court exercises its authority, the
Fifth Circuit will not likely comply with this
Court’s caselaw.
Judge Smith’s dissent explains that the headcount
of nine active judges joining the majority in this case
demonstrates the Fifth Circuit will not comply with
this Court’s settled caselaw unless this Court exercises
its authority. (App. 54a n. 1). Tellingly, eight of the nine
active judges joining the majority opinion herein were in
the group of nine active judges who also voted to deny en
banc review in Luna v. Mullenix, 777 F.3d 221, 222 (5th
Cir. 2014).1 Judge Jones’ dissent carefully explains the
majority’s opinion commits the same Luna errors this
Court corrected in Mullenix, despite this Court’s remand
to reconsider the case in light of Mullenix. (App. 32a-35a).
This Court should again require the Fifth Circuit to
adhere to this Court’s caselaw by reversing the judgment.

1. The eight active judges voting to deny en banc review in
Luna, who also joined the Cole III majority, are Judges Stewart,
Dennis, Elrod, Southwick, Haynes, Graves, Higginson, and Costa.
Cole III, 935 F.3d at 445. (App. 2a).

12
II. The Fifth Circuit also failed to adhere to this Court’s
precedent which has expressly rejected prosecuting
claims under the Fourteenth Amendment that are
governed by the Fourth Amendment.
This Court held in Manuel v. City of Joliet, 137 S. Ct.
911, 918 (2017), discussing that as far back as 1994, five
Justices agreed, the Fourth Amendment governs any
claim based on an alleged unlawful pretrial deprivation
of liberty. (Citing Albright v. Oliver, 510 U.S. 266, 271-73
(1994)). Despite this Court’s controlling precedent from
Albright and Manuel supra, the Fifth Circuit denied
immunity to Officer Carson on a claimed unlawful pretrial
deprivation of liberty, prosecuted under the Fourteenth
Amendment. (App. 12a, 105a). Not only has this Court
expressly rejected such claims, Officer Carson certainly
did not violate clearly established law by relying on this
Court’s precedent in that regard because this Court
determines clearly established law and decides when the
law is established. See Kisela v. Hughes, 138 S. Ct. 1148,
1154 (2018).

13
CONCLUSION
For these reasons, Petitioners ask this Court to grant
the Petition for Writ of Certiorari, apply this Court’s legal
authorities to the facts evidenced in the record, and enter
judgment in favor of all three Petitioners.
Respectfully submitted,
William S. Helfand
Norman Ray Giles
Lewis Brisbois Bisgaard
& Smith, Llp
24 Greenway Plaza,
Suite 1400
Houston, Texas 77046
(713) 659-6767

James T. Jeffrey, Jr.
Counsel of Record
Law Offices of Jim Jeffrey
3200 West Arkansas Lane
Arlington, Texas 76016
(817) 261-3200
jim.jeffrey@sbcglobal.net

Counsel for Petitioners

